OFFICE OF INSPECTOR GENERAL

U.S. DEPARTMENT OF LABOR
OFFICE OF AUDIT




          AUDIT OF PROPOSED CLOSURE OF
           THE OFFICE OF ADMINISTRATIVE
             LAW JUDGES’ LONG BEACH
                   FIELD OFFICE




                                 Report No. 09-00-201-01-060
                                 ISSUED:     March 22, 2000
                                   TABLE OF CONTENTS


                                                                         Page

       Acronyms        .       .       .      .          .   .   .   .      iii

       Executive Summary .             .      .          .   .   .   .       1

       Introduction .          .       .      .          .   .   .   .       2

       Objective, Scope and Methodology .                .   .       .       4

       Audit Results .         .       .      .          .   .       .       5

       Conclusion      .       .       .      .          .   .   .   .      17




       Exhibit A - OALJ Response




U.S. Department of Labor - Office of Inspector General


                                                  ii
                                        ACRONYMS



       CTS             Case Tracking System

       DLHWC           Division of Longshore and Harbor Workers’ Compensation

       FY              Fiscal Year

       GSA             General Services Administration

       LCMS            Longshore Case Management System

       OALJ            Office of Administrative Law Judges

       OASAM           Office of Assistant Secretary for Administration and Management

       OIG             Office of Inspector General

       OWCP            Office of Workers’ Compensation Programs

       USC             United States Code




U.S. Department of Labor - Office of Inspector General


                                                 iii
                                 EXECUTIVE SUMMARY

Congressmen Steven T. Kuykendall and Stephen Horn requested an audit of selected aspects of the
U.S. Department of Labor, Office of Administrative Law Judges (OALJ). The request for audit was
precipitated by the stated intention of the Chief Administrative Law Judge to close the OALJ Long
Beach, California, Field Office. In a September 28, 1999, letter of request to then Inspector General
Charles C. Masten, the Congressmen expressed concern that closure of the office would significantly
impair the abilities of area employers and workers’ to access the administrative adjudicative process.
They also noted that there was a large disparity between caseload figures provided by the OALJ Chief
Judge and statistics cited by the Longshore Claims Association.

The Congressmen posed 22 questions in their request to the Office of Inspector General.

Based upon our analysis of testimonial, statistical, and financial evidence supporting answers to the
questions posed in the September 28, 1999, request, we found no verifiable evidence to support that
closure of the office will diminish access to the adjudication process.

We found the workload figures presented by the Chief Judge accurately reflect case load data
recorded in the OALJ Case Tracking System (CTS). Additionally, we found no legal or regulatory
provisions which would limit the Chief Judge from exercising management prerogative to close the field
office.

Answers to the 22 questions posed in the September 28, 1999, request are presented in the Audit
Results section of this report (pages 5 to 17).

The OALJ response did not disagree with the conclusions presented in the report.

The full text of the OALJ response is included as Exhibit A to this report.




U.S. Department of Labor - Office of Inspector General


                                                    1
                                        INTRODUCTION


 Background



Longshore and Harbor Workers’ Compensation

The U.S. Department of Labor, Office of Workers’ Compensation Programs, Division of Longshore
and Harbor Workers’ Compensation (DLHWC), is responsible for administering the Longshore and
Harbor Workers’ Compensation Act (33 U.S.C.). This law primarily provides compensation for lost
wages, medical benefits and rehabilitation services to longshore, harbor, and other maritime workers
who are injured on the job or who contract an occupational disease related to employment. Survivor
benefits are also provided if the work related injury or disease causes the employee’s death. By
extensions, this law also covers other classes of employees included in The Defense Base Act of 1941,
The Non-Appropriated Fund Instrumentalities Act of 1952, The Outer Continental Shelf Lands Act of
1953, and pre-1982 injuries covered by The District of Columbia Workmen’s Compensation Act.
Benefits are usually paid directly by authorized self-insured employers or through an authorized
insurance carrier. In some instances, benefits are paid by an industry financed “Special Fund.”

A major function of DLHWC personnel is to act as mediators at informal hearings to help parties
establish the facts of each case, define any disputed issues, identify the position of the parties in respect
to the issues, and encourage the voluntary resolution of issues by means of agreement and/or
compromise. DLHWC personnel make recommendations for resolving issues and disposing of the
claim.


Role of the OALJ

If either the claimant or the employer (or insurance carrier) does not agree with the DLHWC
recommendation for settlement, and requests a formal hearing, the case is referred to the OALJ. The
OALJ is the “trial court” for many of the Department’s programs. Over the last 5 years an average of
50 percent of the OALJ national case load has been related to the Longshore/ Harbor Workers’
Statute. Last year (FY 1999) Longshore cases represented 59 percent of the national workload.
These cases are heard by judges working from either OALJ headquarters in Washington, D.C., or one
of the seven district offices (Boston, MA; Camden, NJ; Cincinnati, OH; Metairie, LA; Newport News,




U.S. Department of Labor - Office of Inspector General


                                                      2
VA; Pittsburgh, PA; and San Francisco, CA1.) At the close of 1999 there were 50 judges in the
OALJ. In addition to Longshore and Harbor Workers’ cases, these judges also hear and decide cases
arising from over 80 labor-related statutes and regulations, as well as presiding at Occupational Safety
and Health Administration rulemaking proceedings; and staffing the Board of Contact Appeals and
Board of Alien Certification Appeals.




  Request for Audit



On September 28, 1999, Congressmen Steven T. Kuykendall and Stephen Horn requested an audit of
selected aspects of the Office of Administrative Law Judges, with particular emphasis on the San
Francisco District. In this written request to then Inspector General Charles C. Masten, the
Congressmen advised that the Chief Judge had expressed his intention to close the OALJ Long Beach,
California, Field Office and handle the caseload from the San Francisco District Office. The
Congressmen were concerned this decision was based on past hiring patterns rather than the volume of
Longshore Act claims. They were also concerned that the closure of the Long Beach Field Office
would significantly impact the abilities of Los Angeles area employers and injured workers to readily
access the administrative adjudication process. Additionally, the request noted that “ . . . there is a
tremendous disparity between figures provided by the Chief Judge and by the Longshore Claims
Association.”

The request posed 22 questions relevant to gauging the tenability of the Chief Judge’s intention to close
the office.




        1
                San Francisco District Office includes a field office in Long Beach, California. (This is the
                only field office in the OALJ organizational structure.)

U.S. Department of Labor - Office of Inspector General


                                                      3
                         OBJECTIVE, SCOPE AND METHODOLOGY


Our audit objective was to identify and verify selected OALJ workload statistics and financial impacts
needed to address concerns and questions raised by Congressmen Steven T. Kuykendall and Stephen
Horn. Specifically, we determined why there was a disparity in statistics provided by the OALJ and
the Longshore Claims Association. We answered, where possible, the questions posed in the request.


Our audit was conducted in accordance with Government Auditing Standards issued by the
Comptroller General of the United States. We applied procedures in accordance with performance
audit field work standards to address the specific concerns and questions posed by the Congressmen.
Our audit was limited to providing answers to those questions and concerns, and should not be
interpreted as a performance audit of either the OALJ or the OWCP/DLHWC.

We conducted audit field work from November 1999 to February 2000. During the course of field
work, we interviewed staff, reviewed documentation, and held discussions with: OALJ Judges and
support staff in Washington, D.C., San Francisco District Office, and Long Beach Field Office;
OWCP/DLHWC officials and staff in Washington, D.C., San Francisco Regional Office, and Long
Beach District Office; officials and staff of OASAM San Francisco Regional Office; and members of
the Longshore Claims Association in Long Beach, California.

We relied upon workload and case statistics captured and reported by two departmental systems: (1)
the DLHWC Longshore Case Management System (CMS); and (2) the OALJ Case Tracking System
(CTS). We did not perform audits of either system. Financial information was obtained directly from
travel vouchers, bills, and purchase orders filed with the Department’s Office of Administration and
Management (OASAM). Longshore case referral information was evaluated for an 9-year period (FY
1991 - FY 1999). OALJ workload statistics were evaluated for a 6-year period (FY 1994 - FY
1999). OALJ financial information was obtained for fiscal years 1998 and 1999. Additionally, we
obtained summaries of case assignment itineraries prepared by the San Francisco Chief District Judge
for a 9-year period (FY 1991 - FY 1999). We reviewed specific case itineraries compiled during FY
1998 and FY 1999.




U.S. Department of Labor - Office of Inspector General


                                                  4
                                       AUDIT RESULTS


 Disparity in Workload Statistics Provided by
 OALJ and The Longshore Claims Association



Our evaluation of the “disparity” between the OALJ and Longshore Claims Association statistics found
that both sets of data are generally accurate. However, data used by the Chief Judge are more relevant
in determining the scope of OALJ workload on the West Coast.

The September 28, 1999, letter references a disparity between figures provided by the Chief Judge and
by the Longshore Claims Association. In previous correspondence sent to the Congressmen, the Chief
Judge indicated the volume of longshore work from the Long Beach area was not overwhelming in
comparison to other West Coast port cities. He cited case statistics showing 120 cases in Long Beach,
116 cases in Portland, 114 cases in San Francisco, 95 cases in Seattle, and 74 cases in San Diego set
during 1998.

However, figures supplied by the Longshore Claims Association showed that for the first three quarters
of FY 1999, 1,879 lost time accidents had been reported in Long Beach alone. The Association
explained that lost time accidents potentially lead to formal hearings before the OALJ. Therefore, there
appeared to be a large disparity between figures used by each party to support their positions.

The Chief Judge used case information compiled in the OALJ Case Tracking System. This information
reflected the cases scheduled to be heard by the OALJ. It represented those claims which could not
be satisfactorily settled with the DLHWC.

The Longshore Claims Association cited statistics of claims for lost time accidents filed with
OWCP/DLHWC. But, lost time accidents do not equate directly to OALJ workload.

Our evaluation of lost time accidents as reported by OWCP/DLHWC over the last three fiscal years
shows that nationally, the number of lost time claims becoming an OALJ case referral is relatively small
(14 percent).




U.S. Department of Labor - Office of Inspector General


                                                    5
                                                  Nationwide


                       Fiscal     Cases Referred          Lost Time Claims    Percent
                        Year         to OALJ 1            Filed With OWCP

                        1997            3,458                  26,645             13%

                        1998            3,619                  26,005             14%

                        1999            3,424                  24,599             14%




Further, the percentages of cases referred to the OALJ resulting from lost time claims filed in the San
Francisco, Seattle, and Long Beach OWCP Offices are below the national average.


                                                San Francisco

              Fiscal      San Francisco Cases       Lost Time Claims Filed With         Percent
               Year        Referred to OALJ 1          San Francisco OWCP

               1997               137                           1,022                    13%

               1998               105                           979                      11%

               1999               70                            1,092                     6%




                                                   Seattle

              Fiscal     Seattle Cases Referred     Lost Time Claims Filed With         Percent
               Year             to OALJ 1                  Seattle OWCP

               1997               239                           2,988                     8%

               1998               242                           2,488                    10%

               1999               242                           2,373                    10%




        1
                Referrals per the OWCP Longshore Case Management System.

U.S. Department of Labor - Office of Inspector General


                                                      6
                                               Long Beach

             Fiscal       Long Beach Cases        Lost Time Claims Filed With       Percent
              Year        Referred to OALJ 1          Long Beach OWCP

              1997               189                          2,652                    7%

              1998              2012                          2,501                    8%

              1999               221                          2,609                    8%




 Answers to Specific Questions Posed in
 the September 28, 1999 Request




Question 1       “How many Longshore Act claims were referred from the OWCP to the OALJ
                 for each year beginning in 1991, to the present, for each major city in the San
                 Francisco District (San Diego, Long Beach/Los Angeles, San Francisco,
                 Portland, and Seattle)?”

                 The Longshore Case Management System (LCMS) maintained by the DLHWC
                 tracks information by the OWCP District Office which processes the referred claim.
                 In order to establish the city (or port facility) in which the injury occurred, each claim
                 would have to be individually, manually reviewed. We determined that locating and
                 reviewing each of the 5,746 referrals for the 9-year period was not reasonable.
                 Therefore, we used case referral data from each OWCP office.

                 The four West Coast OWCP offices which refer Longshore cases to the OALJ are:

                      •   San Francisco - jurisdiction: Arizona, Nevada, and Northern California (north
                          of San Luis Obispo, Kern, and San Bernardino counties);

                      •   Seattle - jurisdiction: Alaska, Colorado, Idaho, Montana, North Dakota,


       1
               Referrals per the OWCP Longshore Case Management System.

       2
               This figure does not equal 1998 Long Beach caseload statistics reported by the Chief
               Judge from the OALJ CTS because of timing differences and the inclusion of all Southern
               California and Honolulu cases in the OWCP Longshore Case Management System.

U.S. Department of Labor - Office of Inspector General


                                                    7
                              South Dakota, Oregon, Utah, Washington, and Wyoming;

                     •        Honolulu - jurisdiction: State of Hawaii; and

                     •        Long Beach - jurisdiction: Southern California.



                                    Cases Referred From OWCP Office Located At:

                         FY      San Francisco       Seattle    Honolulu        Long Beach   Total

                    1991               123             298           5              341      767

                    1992               135             360           8              258      761

                    1993               148             400           5              220      773

                    1994               136             289           6              150      581
                    1995               127             318          14              168      627

                    1996               139             295           3              154      591

                    1997               137             239           01             189      565

                    1998               105             242           01             201      548

                    1999               70              242           01             221      533



Question 2         “Have the number of Longshore Act claims referred to the OALJ in each of
                   these cities increased or decreased since 1991?”

                   Since 1991 the number of cases has fluctuated but generally declined.




                                 % Reduction of Cases Between 1991 and 1999

                                San Francisco         Seattle             Long Beach

                                     43%               19%                    35%




       1
           Honolulu cases included with Long Beach Office.

U.S. Department of Labor - Office of Inspector General


                                                        8
Question 3       “How many judges have been assigned to the Long Beach and San Francisco
                 offices, respectively, for each year beginning in 1991 to present?”



                         Fiscal    Long Beach            San Francisco   Total San Francisco
                          Year     Based Judges          Based Judges          District
                          1991            2                    9                   11

                          1992            2                   10                   12

                          1993            2                   10                   12
                          1994            2                   10                   12

                          1995            2                    9                   11

                          1996            2                    8                   10

                          1997            2                    7                   9

                          1998            2                    8                   10

                          1999            21                   8                   10



Question 4       “How many judges have been added to the San Francisco District Office
                 since 1991?”

                 Three judges have been hired since 1991. One judge was hired in 1992. One judge
                 was hired in 1993. One judge was hired in 1998.

                 During the same period four judges left employment in the OALJ San Francisco
                 District Office. One judge departed in each of the following years: 1993, 1995, 1996
                 and 1997.

                 There has been a net decrease of one judge in the San Francisco District Office since
                 1991.


Question 5       “Is it true one of the judges recently hired by the OALJ was a resident of Los
                 Angeles County before being assigned to the San Francisco Office?”



       1
               Includes one Judge who retired June 1999.

U.S. Department of Labor - Office of Inspector General


                                                  9
                 Yes. The judge hired in 1998 was originally a resident of Los Angeles County when
                 she applied for the OALJ position.

Question 6       “If so, why wasn’t she assigned to the Long Beach Field Office?”

                 The judge advised us that she specifically requested assignment to the San Francisco
                 Office.

Question 7       “How many judges have been added to the Long Beach Field Office since
                 1991?”

                 No additional judges have been assigned to the Long Beach Field Office since 1991.

Question 8       “How does the staffing pattern compare to the volume of claims referred to
                 the OALJ?”

                 There is no direct correlation between Longshore case referrals and the staffing
                 pattern of the San Francisco District Office.

                 Judges from the San Francisco District Office preside at hearings arising from over 80
                 labor related statutes. While Longshore cases comprised about 80 percent of their
                 case volume, the composition of case types in the workload mix can vary from one
                 year to the next. Also, the complexity and time involved in deciding “traditional”
                 (non-Longshore related) cases can be greater than the complexity of Longshore
                 cases.

                 Further, Judges from San Francisco travel to other parts of the country to preside
                 over hearings. Conversely, Judges stationed at other OALJ District Offices may
                 travel to court venues on the West Coast to preside over hearings, including
                 Longshore cases. Therefore, there is no direct relationship between the number of
                 Longshore claims referred from the West Coast OWCP Offices and the staffing of
                 the OALJ San Francisco District Office.

                 To put this into a more relevant context, between 1991 and 1999 there has been a 30
                 percent reduction in the number of Longshore cases referred from the West Coast.
                 However, the net change in staffing to the San Francisco District Office has been a
                 one Judge reduction. If there was a direct relationship between Longshore cases and
                 OALJ staff, it might be reasonably expected there would have been a three Judge
                 reduction.



U.S. Department of Labor - Office of Inspector General


                                                  10
Question 9       “Are the residents of Southern California receiving their fair share of
                 resources?”

                 We found no statistical basis to support a response to this question.

Question 10      “Are visiting judges providing parties with adequate notice of trial dates and
                 times?”

                 Based on our review of the notification letters attached to case files, we confirmed
                 parties are given 90 to 120 days advance notice. However, the specific date and time
                 of each individual hearing are not set until a “calendar call” is convened at the
                 beginning of the hearing week.


Question 11      “What is the average number of cases heard per trip by judges traveling to the
                 Long Beach area?”

                 Based upon trip itineraries filed by judges in 1998 and 1999, on average, a judge
                 presides over about four hearings per visit.

Question 12      “What is the average length of a visiting judge’s hearing trip?”

                 Review of travel vouchers showed that during 1998 and 1999 trips to Long Beach
                 spanned from 1 to 8 days. Usually trips last from 3 to 5 days. The average number
                 of days spent in Long Beach by a visiting judge during the last 2-year period is 4
                 days.

Question 13      “How many cases are generally continued?”

                 Based on a review of trip itineraries filed for judges during 1998 and 1999, an
                 average of three cases are continued per visit.

Question 14      “Does it take approximately six months to reschedule a hearing with a
                 visiting judge?”




U.S. Department of Labor - Office of Inspector General


                                                  11
                 Yes. Based on entries in the case tracking system during 1998, average time from
                 continuance1 to the next hearing was 6.9 months for visiting judges. During 1999, the
                 average time from continuance to the next hearing was 5.6 months. (This calculation
                 includes visiting judges assigned from anywhere in the U.S., not just visiting judges
                 assigned from San Francisco.)

                 During the same period, average time for continuance to the next hearing for judges
                 based in Long Beach was 6 months for 1998 and 1999.


Question 15      “If so why?”

                 If a continuance is granted by a visiting Judge, the case is returned to the inventory of
                 unassigned cases at the District Office. It is assigned out of the inventory to another
                 Judge using the District case assignment process (see answer to question 16). After
                 assignment to a Judge, there is a 90 to 120-day notification period before the
                 calender call. The entire process takes about 6 months.

                 If a continuance is granted by a Judge in the Long Beach Field Office, the Judge
                 keeps that case in his workload. (It is not returned to the unassigned inventory at the
                 District Office.) The Judge can reschedule the case for rehearing at the parties’
                 convenience. However, we found that these cases also averaged 6 months to the
                 next hearing date.

                 Based upon our review of statistics generated from the OALJ Case Tracking System,
                 there was no appreciable difference between rescheduling intervals by visiting Judges
                 and Long Beach-based Judges.




       1
               The calculation used to answer this question reflects continuances generated from cases
               originally scheduled to be heard in the City of Long Beach, California. In some instances,
               one case could be continued more than one time. The calculation would count each
               continuation as a separate event and calculate the duration from the first continuance to
               each succeeding hearing or next continuance.

               Also, for comparative purposes, we evaluated the length of time it took to reschedule
               hearings in Seattle, Washington. (All hearings in Seattle are conducted by visiting
               Judges.) We found that length of time for continuances in 1998 was 6.1 months and in
               1999 it was 5.4 months. This was comparable (actually for 1999 slightly shorter time
               frames) to the length of continuances handled by the Long Beach based Judges.


U.S. Department of Labor - Office of Inspector General


                                                   12
Question 16      “How are case assignments made?”

                 The Chief District Judge is responsible for case assignments. As Longshore cases
                 come to the District OALJ (including continuances returned from visiting Judges) they
                 are compiled in an inventory. When the inventory of cases reaches about 14 for a
                 geographical area (i.e., Long Beach, Seattle, San Diego) the District Chief Judge
                 assigns the cases and the hearing date to the next Judge in the rotation. For example,
                 if the total number of Judges that hear Longshore cases in a District is 10, a Judge will
                 expect to be assigned about every 10th case itinerary for each geographic area.
                 The rotation process assures that the same Judges will not be consistently assigned to
                 the same geographical areas.

                 It should be noted that there are exceptions to this assignment process. Some types
                 of non-longshore cases require expedited hearings per Statute. Also, in cases where
                 a party’s health is deteriorating, there is an isolated hearing site, or in other unique
                 circumstances, special hearing trips are scheduled.

Question 17      “Are travel expenses generally considered when making case assignments?”

                 Travel expenses are considered to the extent that if case itineraries are reduced to one
                 or two cases before a hearing date, the trip may be canceled.

                 For example, a Judge sends out a notification letter identifying the date, time of the
                 calender call, and the case itinerary; a number of things happen before the calendar
                 call date. Cases can settle before the calender call, or attorneys or claimants may ask
                 for a continuance. If out of the original 14 cases, only 1 or 2 remain, the Judge may
                 cancel the calendar call until more cases can be added to the itinerary to make the trip
                 more cost effective.

Question 18      “What is the average travel cost associated with sending a San Francisco
                 based judge to Long Beach to conduct formal hearings?”

                 Average cost per trip by San Francisco-based Judges in 1998 was $695. Average
                 cost for 1999 was $609.

Question 19      “What are the annual travel costs associated with hearing cases in Long
                 Beach?”

                 Total travel cost in 1998 was $6,258. Total travel cost in 1999 was $5,924.



U.S. Department of Labor - Office of Inspector General


                                                   13
Question 20      “What would be the net savings associated with closing the Long Beach
                 Field Office?”

                                                                      Cost            Total
                 FY 1999 Audited Costs:

                 Office Rent - Long Beach Field Office             $115,7921
                 Copier                                               3,636
                 Parking                                              1,440
                 Total Cost of Office                                               $120,868

                 Estimated Costs After Closure:

                 Office Rent - Court/Witness Room and
                                 Judge’s Chamber                      28,2162
                 Salary Cost Increases (San Francisco pay rates)      2,910
                 Travel Cost Increases (3 trips @ $717 per trip)       2,151
                 Estimated Annual Cost After Closure                  33,277

                                                                                    $ 87,591 1

Question 21      “Assuming that the Long Beach Field Office remains open to serve the
                 residents of Southern California, and considering the total caseload of the
                 OALJ, how many judges should be assigned to the Long Beach Field
                 Office?”

                 We did not answer this question.

Question 22      “Are there any administrative policies that would preclude Judge Vittone
                 from reassigning existing administrative law judges to the Long Beach Field
                 Office?”

                 No. We found no policies which would restrict the Chief Judge from reassigning
                 judges to or from the Long Beach Field Office.

       1
               On October 1, 1999, the General Services Administration (GSA) changed the method it
               uses for billing space to Federal agencies. The new method will result in a slightly lower
               rental charge for the existing space. Therefore, if the office remains open, estimated
               annual office rent will be $106,225 not $115,792. Consequently, a more accurate
               calculation of net savings would be $78,024 ($111,301 less $33,277) rather than the
               $87,591 which was based on audited costs.
       2
               Rent calculation based on revised GSA billing rate and OALJ estimates of needed square
               footage limited to courtroom, witness room, and Judge’s chamber space.

U.S. Department of Labor - Office of Inspector General


                                                    14
                                       CONCLUSION
Based upon the information developed to answer the 22 questions, we found no verifiable evidence to
support that closure of the OALJ Long Beach Field Office will diminish access to the administrative
adjudication process.




U.S. Department of Labor - Office of Inspector General


                                                 15
EXHIBIT A - OALJ RESPONSE




                                     AUDITEE RESPONSE




U.S. Department of Labor - Office of Inspector General


                                                 16
